TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Some Automated Collection System
                       Large-Dollar Cases Were Not Worked
                                    Effectively



                                         February 5, 2009

                              Reference Number: 2009-30-023




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               February 5, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Some Automated Collection System Large-Dollar
                                 Cases Were Not Worked Effectively (Audit # 200730013)

 This report presents the results of our review to evaluate whether large-dollar cases are worked
 effectively by the Automated Collection System 1 (ACS) function. This audit was conducted as
 part of our Fiscal Year 2008 Annual Audit Plan.

 Impact on the Taxpayer
 An ACS large-dollar case is one in which the taxpayer’s aggregate delinquent tax owed is greater
 than or equal to $100,000 and less than $1 million. Although workload and inventory were
 managed effectively, 17 (27 percent) of 62 sampled cases were either systemically moved to the
 Queue or not worked properly by employees. We estimate that work might have been
 discontinued on approximately 1,001 taxpayer accounts with a potential dollar impact of up to
 $209 million.

 Synopsis
 Although the ACS large-dollar cases represented only about 1 percent of the modules closed in
 Fiscal Year 2007, they are important because they represented approximately 15 percent of the
 ACS dollars collected. We determined that ACS function management effectively assigned the
 workload and managed the inventory of large-dollar cases. Management properly routed
 large-dollar cases to the appropriate work groups if they met the large-dollar criteria or provided

 1
     See Appendix V for a glossary of terms.
                    Some Automated Collection System Large-Dollar Cases
                               Were Not Worked Effectively



IRS management responded that it is not practical or necessary to involve ACS managers in
cases worked by non-ACS employees because of the small volume of cases worked by non-ACS
employees. Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
Although the number of cases worked by non-ACS employees was small and IRS management
believes it impractical to review them, we continue to believe that management should take some
action to prevent/detect errors in cases processed by non-ACS employees. In addition, although
IRS management agreed with the recommendation to evaluate cases moving to the Queue, they
did not agree with the up to $209 million estimated dollar impact because dollars might continue
to be collected from cases in the Queue. While we acknowledge that funds might be collected in
the future, our outcome measurement estimates were based on the information available at the
time of our review, and the IRS could not provide us with reliable estimates or probabilities on
amounts that might be collected in future years while cases remain in the Queue.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                               4
                             Some Automated Collection System Large-Dollar Cases
                                        Were Not Worked Effectively




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Management Effectively Controlled and Monitored Workload and
          Provided Additional Training to Employees ................................................Page 3
          Cases Were Systemically Moved to the Queue Before Sufficient
          Actions Could Be Taken...............................................................................Page 3
                    Recommendation 1:..........................................................Page 5

          Management Needs to Ensure That Employees Obtain and Verify
          Financial Information As Required ..............................................................Page 6
                    Recommendations 2 and 3: ................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measures...............................................................Page 14
          Appendix V – Glossary of Terms .................................................................Page 16
          Appendix VI – Management’s Response to the Draft Report ......................Page 18
      Some Automated Collection System Large-Dollar Cases
                 Were Not Worked Effectively




                 Abbreviations

ACS        Automated Collection System
FY         Fiscal Year
IRS        Internal Revenue Service
                           Some Automated Collection System Large-Dollar Cases
                                      Were Not Worked Effectively




                                              Background

The Automated Collection System 1 (ACS) is a
computerized inventory system that maintains certain         There were approximately
                                                                 4 million taxpayer
balance-due accounts and return delinquency                    accounts in the ACS
investigations. The ACS plays a vital role in the Internal        inventory as of
Revenue Service (IRS) collection program. IRS                      April 27, 2008.
customer service representatives use this System when
contacting delinquent taxpayers by telephone to collect
unpaid taxes and secure tax returns. A Collection function report dated April 27, 2008, showed
approximately 4 million taxpayer accounts in the ACS inventory.
The IRS classifies an ACS case as a large-dollar case when the taxpayer’s aggregate delinquent
tax owed is equal to or greater than $100,000 and less than $1 million. These cases are important
because, while they represent only about 1 percent of the total ACS modules closed, they
represent approximately 15 percent of the ACS dollars collected. Figure 1 shows this
comparison.
                Figure 1: Large-Dollar Cases Closed From the ACS Inventory
                                During Fiscal Year (FY) 2007

                     FY 2007 ACS Modules Closed                  FY 2007 ACS Dollars Collected


                            1%
                                                                             15%



                                              Large-Dollar                                 Large-Dollar
                                              All others                                   All Others



                                                                   85%
                            99%



            Source: FY 2007 Collection 5000-2 Report, IRS FY 2007 Large-Dollar Unit Report, and
            ACS Closed Delinquent Account Modules.

Resolution of cases in the ACS function often requires financial analysis to determine the
taxpayers’ ability to pay. Past-due accounts with aggregate balances of $100,000 or more are
high-profile accounts. The IRS has additional required procedures and tighter internal controls
for working these accounts. Employees must take appropriate closing actions and, in doing so,

1
    See Appendix V for a glossary of terms.
                                                                                                          Page 1
                      Some Automated Collection System Large-Dollar Cases
                                 Were Not Worked Effectively



not violate taxpayers’ rights. The large-dollar cases can prove more difficult to work in the ACS
setting because they involve more complex issues and require more documentation from the
taxpayers. For example, Internal Revenue Manual guidance requires additional verification of
certain items on the financial statements, such as securing pay stubs from wage sources and
verifying questionable expenses. Inaccurate analysis of a taxpayer’s financial information might
lead to improperly classifying the account as currently not collectible or accepting an installment
agreement when full payment is possible, thus adversely affecting the collection of tax dollars.
Figure 2 shows how the Large-Dollar Unit closed its cases during FY 2007.

                  Figure 2: Large-Dollar Unit Closures During FY 2007

                                               Number of Cases      Percentage of Total
            Type of Closure
                                                  Closed                 Closures
            Transfer to Queue                      2,922                    28.7
            Currently Not Collectible              2,566                    25.2
            Installment Agreement                  1,631                    16.0
            Fully Paid                               994                     9.8
            Offer in Compromise                      972                     9.6
            Transfer to Revenue Officer              627                     6.2
            Litigation                               404                     4.0
            Other                                     55                      .5
            Total                                 10,171                   100.0
            Source: ACS Large-Dollar Report dated September 2007.

Through September 2007, the ACS function call site in Buffalo, New York, was the only site
working large-dollar accounts. According to the Collection function statistical reports provided
by IRS management, the Buffalo Call Site Large-Dollar Unit closed 10,171 cases with balances
due of approximately $2.1 billion in FY 2007. In October 2007, the ACS function call site in
Brookhaven, New York, took responsibility for working the Small Business/Self-Employed
Division large-dollar taxpayer cases. Currently, approximately 350 employees at these 2 call
sites work large-dollar accounts.
This review was performed at the Small Business/Self-Employed Division National
Headquarters in New Carrollton, Maryland, and at the Buffalo Call Site during the period
November 2007 through June 2008. This audit addresses large-dollar delinquent accounts and
delinquent returns worked in the ACS function, mostly at the Buffalo Call Site. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.
                                                                                            Page 2
                     Some Automated Collection System Large-Dollar Cases
                                Were Not Worked Effectively




                                Results of Review

Management Effectively Controlled and Monitored Workload and
Provided Additional Training to Employees
IRS managers are responsible for managing the work of employees including assigning work to
and directing their activities, as well as for planning and carrying out the training and
development of their employees. ACS function management effectively assigned the workload
and managed the inventory of large-dollar cases. Management properly routed large-dollar cases
to the appropriate work groups if they met the large-dollar criteria or provided an adequate
explanation when they were not routed. For example, a separate ACS function group works
international large-dollar cases so that those cases are not routed to the large-dollar groups.
In addition, ACS function management had adequate procedures and reports in place to monitor
inventory. For example, the ACS can generate management information reports at various levels
such as tracking daily workload by team, function, and unit. ACS function management also
conducts a monthly review of large-dollar cases during which the reviewer/manager evaluates
the major case actions. These data are input to a quality review system that evaluates whether
employees perform their work effectively. ACS function management prepared inventory
reports that identified how long cases had been assigned to ACS function employees and took
appropriate actions to minimize the number of cases that were past their due dates. The
percentage of over-age cases in the large-dollar inventory was minimal. Our review of a small
sample of cases showed that employees were actively working cases and addressing over-age
cases.
Further, ACS function employees who work the large-dollar cases received specialized training
because of the more complex issues they might encounter on a case. For example, they received
extra training in verifying financial information and educating taxpayers about compliance.
Management provides this additional training to help ACS function employees who work the
large-dollar cases to be more effective and efficient when working the cases.

Cases Were Systemically Moved to the Queue Before Sufficient
Actions Could Be Taken
We identified cases assigned to the ACS inventory that were systemically moved to the Queue
before employees could complete their work to try to collect the delinquent taxes. As a result,
these cases were placed in the Queue, where the chances of collecting taxes are considerably less
than if ACS function employees had the opportunity to contact the taxpayers and complete other
required actions.
                                                                                          Page 3
                          Some Automated Collection System Large-Dollar Cases
                                     Were Not Worked Effectively



collection than those in the Queue, regardless of whether the taxpayers have additional modules
in the Queue.
ACS function employees attempt to contact taxpayers, obtain financial information, and resolve
the accounts. In FY 2007, approximately 35 percent of large-dollar ACS cases resulted in some
form of collection 3 action, and another 10 percent were litigated or sent directly to a revenue
officer for additional collection action. Conversely, the Queue is simply a holding file, where
cases have less of a chance of having their delinquencies resolved. The IRS needs to determine
whether the benefit of keeping all delinquent taxes owed by one taxpayer together in one
location (i.e., the Queue) outweighs the potentially smaller probability of collecting the taxes for
cases located there.
Revenue might be lost if cases are sent to the Queue rather than remaining in inventory to be
worked by the ACS function. The 9 cases we identified had aggregate assessed balances due 4 of
$1,809,825.61 when they were assigned to the ACS. Currently, 6 of these cases, which still have
tax modules in the Queue, have an aggregate balance due of more than $1 million. The
remaining 3 cases have an installment agreement set up or have been fully paid. Based on a
population of 10,325 cases, we estimate that work might have been discontinued on
approximately 1,001 taxpayer accounts with an aggregate balance due of approximately
$209 million. 5 Cases assigned to the Queue might result in some taxes being collected;
therefore, the $209 million is an estimate of the highest potential dollars that could be collected
and the amount could be less. The IRS does not track or compare the collection rate differences
between cases assigned to the Large Dollar Unit with cases in the Queue, so we could not
provide a more precise estimate.

Recommendation
Recommendation 1: The Director, Compliance, Wage and Investment Division, and the
Acting Director, Campus Compliance Services, Small Business/Self-Employed Division, should
1) perform an analysis to determine how many cases might have been sent to the Queue prior to
meeting the general criteria and sample some of the cases to determine why the cases were
moved, and 2) evaluate the current Business Rules and resulting programming that move a case
to the Queue automatically. This analysis should compare the benefit of keeping tax modules in
the ACS with the higher probability of collecting the delinquent tax on a case assigned to the
ACS instead of the Queue.
         Management’s Response: IRS management agreed with this recommendation.
         They plan to review a sample of cases leaving the ACS and going to the Queue. During


3
  Including full payments, offers in compromise, and installment agreements.
4
  This is the ACS assessed total which includes assessed tax, interest, and penalties.
5
  See Appendix IV for details.
                                                                                              Page 5
                     Some Automated Collection System Large-Dollar Cases
                                Were Not Worked Effectively



       this review, they will identify whether the system or an employee made the decision to
       move the cases to the Queue. They will work with the group that has oversight
       responsibility for the Inventory Delivery System to ensure that the existing Business
       Rules are working as intended and that the rules still make sense today. After this
       analysis is completed, they will determine if changes to the Business Rules are necessary.
       Office of Audit Comment: Although IRS management agreed with the
       recommendation and is taking corrective action, IRS management did not agree with the
       up to $209 million estimated dollar impact because dollars might continue to be
       collected from cases in the Queue. While we agree that some funds might be collected
       in the future, our outcome measurement estimates were based on the information
       available at the time of our review, and the IRS could not provide us with reliable
       estimates or probabilities on amounts that might be collected in future years while cases
       remain in the Queue.

Management Needs to Ensure That Employees Obtain and Verify
Financial Information As Required
Certain required actions must be completed when employees work ACS large-dollar cases. For
example, ACS function employees should conduct a full compliance check, request full
payment, give appropriate warnings of enforcement action, obtain financial information and a
financial statement, verify all income and expenses on the financial statement, and identify
equity in assets. These actions are especially important when working large-dollar cases because
of the complexity of the cases. We identified cases for which some procedures or actions were
not completed prior to case closure. Decisions based on missing or incomplete information
could result in reduced collection potential.
Our review of a statistical sample of 62 cases evaluated whether ACS function Large-Dollar Unit
cases were worked and resolved effectively. We reviewed each case to determine whether all
required procedures and actions were completed and whether the final resolution of the case was
effective. In some cases, one or more of the actions or procedures generally required might not
have been necessary to properly bring the case to an effective resolution. For example, if a case
was closed as fully paid or with an installment agreement, it would not be applicable to warn the
taxpayer about possible enforcement actions.
We could not evaluate the effectiveness of the actions taken on 9 of the 62 cases because they
were closed to the Queue before the actions could be completed, as discussed previously. Our
review of the remaining 53 cases showed that 45 were effectively worked by the ACS function
Large-Dollar Unit. For these cases, employees generally performed proper compliance checks,
gave appropriate warnings of enforcement action, filed liens and levies as appropriate, explained
alternative options to taxpayers, and obtained taxpayers’ current addresses and telephone
numbers.

                                                                                           Page 6
                    Some Automated Collection System Large-Dollar Cases
                               Were Not Worked Effectively



Recommendations
The Director, Compliance, Wage and Investment Division, and the Acting Director, Campus
Compliance Services, Small Business/Self-Employed Division, should:
Recommendation 2: Remind employees of the required actions on large-dollar cases through
annual training or briefings and remind managers of the importance of reviewing cases for these
actions.
       Management’s Response: IRS management agreed with this recommendation.
       They will emphasize these issues in the training ACS function Large-Dollar Unit
       employees receive each year. ACS function Large-Dollar Unit employees in the Small
       Business/Self-Employed Division received this training in October 2008, and the Wage
       and Investment Division employees will receive this training in FY 2009. In addition,
       management is updating their Financial Analysis training which will be provided to all
       ACS employees.
Recommendation 3: Determine whether it is practical to involve ACS function managers in
a case review when a non-ACS function employee works a case assigned to the ACS inventory.
       Management’s Response: Wage and Investment Division and Small Business/Self-
       Employed Division managements discussed this issue and decided that due to the small
       volume of cases worked by non-ACS employees, it is not practical or necessary to
       involve ACS managers in those cases.
       Office of Audit Comment: Although the number of cases worked by non-ACS
       employees was small and IRS management believes it impractical to review them, we
       continue to believe that some action should be taken to prevent/detect errors in cases
       processed by non-ACS employees.




                                                                                          Page 8
                           Some Automated Collection System Large-Dollar Cases
                                      Were Not Worked Effectively



                                                                                   Appendix I

            Detailed Objective, Scope, and Methodology

Our overall audit objective was to evaluate whether large-dollar cases are worked effectively by
the ACS 1 function. To accomplish the objective, we:
I.         Evaluated ACS large-dollar case assignment practices.
           A. Identified the goals of the ACS function Large-Dollar program and the procedures for
              case assignment.
           B. Determined whether employees assigned to the ACS function Large-Dollar program
              had the skills to achieve program objectives.
           C. Identified the management information systems used for measuring, reporting, and
              monitoring the effectiveness of the ACS function Large-Dollar program. We
              analyzed the ACS Large-Dollar Report for all taxpayers for October 2006 through
              September 2007 and the March FY 2008 report for Wage and Investment Division
              taxpayer cases. The October 2006 through September 2007 report showed
              10,171 taxpayer cases. We compared the results to Collection function Report
              5000-2 for October 2006 through September FY 2007, which showed results for
              closed cases that were not large-dollar cases.
           D. Determined whether there was sufficient management information available for
              measuring, reporting, and monitoring the effectiveness of the ACS function
              Large-Dollar program.
           E. Determined whether Small Business/Self-Employed Division taxpayer cases were
              being effectively transferred and/or routed to the ACS function call sites in
              Buffalo, New York, and Brookhaven, New York. We analyzed the open inventory
              from the Treasury Inspector General for Tax Administration Data Center Warehouse
              database and identified 15,061 taxpayers with individual tax period balances due
              equal to or greater than $100,000 and less than $1 million.
II.        Determined whether ACS function large-dollar group employees and managers followed
           proper procedures.
           A. Identified the population of 10,325 ACS large-dollar cases closed between
              October 1, 2006, and September 30, 2007, using data provided by IRS Wage and
              Investment Division management. These were taxpayer cases whose aggregate tax

1
    See Appendix V for a glossary of terms.
                                                                                           Page 9
             Some Automated Collection System Large-Dollar Cases
                        Were Not Worked Effectively



   liability balances when assigned to the ACS were greater than or equal to $100,000
   and less than $1 million. (The populations in Steps II.A. and Step I.C. are not the
   same because there was a timing difference, and the data in this step represented raw
   taxpayer data, not data in a formal management information report.)
B. Tested the reliability of the data by comparing IRS-provided data to data on the ACS
   contained in the Treasury Inspector General for Tax Administration Data Center
   Warehouse. To determine the number of ACS large-dollar cases, we queried the
   ACS closed files on August 28, 2007, to obtain the number of modules closed from
   July 2006 through August 2007 (most current data available at that time), for which
   the module amount was $100,000 or greater and less than $1 million. We determined
   that the data provided by the IRS seemed reasonable. In addition, we verified through
   Integrated Data Retrieval System research that the 62 cases (selected in Step II.C.)
   from IRS-provided data were worked and closed by the ACS function during our
   audit period.
C. Randomly selected a statistical sample of 62 ACS large-dollar closed cases from the
   population of cases obtained in Step II.A. We determined the sampling plan after
   obtaining IRS quality review results from the ACS function to set a 20 percent
   expected error rate, a 95 percent confidence level, and a +10 percent precision level.
D. Reviewed case histories and related case action files to determine whether the ACS
   large-dollar cases were assigned properly and worked effectively. We reviewed each
   case for various criteria, including whether:
   1. Appropriate employees worked the cases.
   2. Financial analysis was complete and accurate.
   3. Required information was documented.
   4. Followups were done in a timely manner.
   5. Managerial approval was obtained, if required.
   6. Type of closing was appropriate.
E. Determined whether open cases were being worked and followed up on in a timely
   manner.
   1. Identified the population of open cases from the ACS Inventory Impact I Reports
      for the Buffalo Call Site as of April 29, 2008, and for the Brookhaven Call Site as
      May 19, 2008.
   2. Determined the over-age criteria based on discussions with management. For the
      Buffalo Call Site, the criteria were “the ACS-established date is more than
      24 weeks and the followup date had expired.” For the Brookhaven Call Site, the

                                                                                  Page 10
                    Some Automated Collection System Large-Dollar Cases
                               Were Not Worked Effectively



              criteria were “the ACS-established date is more than 13 weeks and the followup
              date had expired.”
          3. Selected judgmental samples of 10 over-age cases from the 3,862 population in
             the ACS Inventory Impact I Report dated April 29, 2008, for the Buffalo Call Site
             and 10 cases from the 6,462 population in the Treasury Inspector General for Tax
             Administration Data Center Warehouse database dated June 18, 2008, for the
             Brookhaven Call Site. We used judgmental sampling because the over-age
             reports did not indicate a problem with cases being over-age, and we conducted
             this test to validate the data provided in the Report.
III.   Determined the closing trends for large-dollar cases (e.g., number of cases closed as fully
       paid, by installment agreement, as currently not collectible, or transferred to the Queue).




                                                                                          Page 11
                    Some Automated Collection System Large-Dollar Cases
                               Were Not Worked Effectively



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Lynn Wofchuck, Audit Manager
Julian O’Neal, Lead Auditor
Christina Dreyer, Senior Auditor
Cristina Johnson, Senior Auditor




                                                                                      Page 12
                   Some Automated Collection System Large-Dollar Cases
                              Were Not Worked Effectively



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Acting Director, Campus Compliance Services, Small Business/Self-Employed Division
SE:S:CCS
Acting Director, Filing and Payment Compliance, Wage and Investment Division
SE:W:CP:FPC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Commissioner, Small Business/Self-Employed Division SE:S
                 Commissioner, Wage and Investment Division SE:W




                                                                                     Page 13
                           Some Automated Collection System Large-Dollar Cases
                                      Were Not Worked Effectively



                                                                                 Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Increased Revenue – Potential; $209 million associated with 1,001 taxpayer accounts
      (see page 3).

Methodology Used to Measure the Reported Benefit:
For the period October 1, 2006, through September 30, 2007 (FY 2007), we identified a
population of 10,325 taxpayer cases closed by the ACS 1 function Large-Dollar Unit. From this
population, we selected a statistically valid sample of 62 taxpayer cases based on a confidence
level of 95 percent, a precision level of +10 percent, and an expected error rate of 20 percent
(based on IRS quality review results from the ACS function).
We reviewed the 62 cases to determine whether they were worked effectively and resolved
properly by the ACS function. The ACS systemically moved 9 (14.5 percent) of the 62 taxpayer
cases to the Queue before ACS function employees could complete their work to try to collect
the delinquent taxes. Three have been resolved as of the date of this report. Based on the
remaining 6 taxpayer cases, we estimate that 1,001 cases in our population might have been
moved to the Queue before work on the cases was completed. This is computed by the ratio of 6
to 62 (.097) multiplied by the total population of 10,325 cases, which results in a potential
1,001 taxpayer accounts systemically moved to the Queue.
Revenue might be lost if cases are sent to the Queue and do not remain in inventory to be
worked by the ACS function. We estimate that ACS cases with a potential aggregate assessed
balance due of $209 million were affected during the period October 1, 2006, through
September 30, 2007. This is based on the dollar value ratio of the 6 sample cases that had been
closed to the Queue ($1,135,651.71 at the time of our review) and the aggregate assessed balance
due of all 62 cases from our sample ($11,399,888.48), multiplied by the $2.1 billion in the total
population of ACS cases, as follows: $1,135,651.71 divided by $11,399,888.48 = .09961954
multiplied by $2.1 billion = $209,201,034.



1
    See Appendix V for a glossary of terms.
                                                                                            Page 14
                     Some Automated Collection System Large-Dollar Cases
                                Were Not Worked Effectively



We recognize that this is an estimate of the potential increase in revenue and does not ensure that
the taxes will be fully collected. Cases in the Queue have the potential for taxes to be collected
and the $209 million could be less if taxes were collected on these accounts.
The IRS does not track or compare the collection rate differences between those cases that
remain in the ACS and are worked by the ACS function Large-Dollar Unit with those cases sent
to the Queue. We assumed that the collection rate for ACS function cases is considerably higher,
given the IRS’ continued investment in resources dedicated to the ACS function Large-Dollar
Unit.




                                                                                           Page 15
                  Some Automated Collection System Large-Dollar Cases
                             Were Not Worked Effectively



                                                                          Appendix V

                            Glossary of Terms

Term                               Definition
Automated Collection System        A telephone contact system through which
                                   telephone assistors collect unpaid taxes and secure
                                   tax returns from delinquent taxpayers who have
                                   not complied with previous notices.
Currently Not Collectible          Accounts that are removed from active inventory
                                   after the necessary steps in the collection process
                                   have been taken.
Data Center Warehouse              A centralized storage and administration of files
                                   that provides data and data access services of IRS
                                   data.
Enforcement Actions                Possible enforcement actions include putting a levy
                                   on the taxpayer’s assets (e.g., bank accounts),
                                   filing a Federal Tax Lien(s), and serving a
                                   summons for financial records or testimony.
Installment Agreement              Arrangement whereby the IRS allows a taxpayer to
                                   pay a liability(ies) over time.
Integrated Data Retrieval System   IRS computer system capable of retrieving or
                                   updating stored information. It works in
                                   conjunction with a taxpayer’s account records.
Internal Revenue Manual            A manual containing the procedures and controls
                                   for IRS employees to follow.
Levy                               A method used by the IRS to collect outstanding
                                   taxes from sources such as bank accounts and
                                   wages.
Lien                               An encumbrance on property or rights to property
                                   as security for outstanding taxes.




                                                                                   Page 16
                  Some Automated Collection System Large-Dollar Cases
                             Were Not Worked Effectively




Term                               Definition
Offer In Compromise                An agreement between a taxpayer and the IRS that
                                   resolves the taxpayer’s tax debt. The IRS has the
                                   authority to settle, or “compromise,” Federal tax
                                   liabilities by accepting less than full payment
                                   under certain circumstances.
Queue                              An automated holding file for unassigned
                                   inventory of delinquent cases for which the
                                   Collection function does not have enough
                                   resources to immediately assign a case for contact.
Return Delinquency Investigation   An unfiled tax return(s) for a taxpayer. One
                                   investigation exists for all delinquent tax periods
                                   for a taxpayer.
Revenue Officer                    Employees who make personal contacts with
                                   taxpayers to collect unpaid taxes.
Small Business/Self-Employed       Taxpayers filing business tax returns or individual
Division Taxpayer                  tax returns containing business income and
                                   expenses. These taxpayers have business assets of
                                   less than $10 million.
Wage and Investment Division       Taxpayers filing individual tax returns.
Taxpayer




                                                                                   Page 17
      Some Automated Collection System Large-Dollar Cases
                 Were Not Worked Effectively



                                                 Appendix VI

Management’s Response to the Draft Report




                                                        Page 18
Some Automated Collection System Large-Dollar Cases
           Were Not Worked Effectively




                                                  Page 19
Some Automated Collection System Large-Dollar Cases
           Were Not Worked Effectively




                                                  Page 20
